                 SUMMARY OF AUDITS OF
        ACQUISITION OF INFORMATION TECHNOLOGY


Report No. D-2000-162                   July 13, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
      GAO             General Accounting Office
      IG              Inspector General
      MAIS            Major Automated Information System
                                INSPECTOR GENERAL
                                D EPARTMENT  OF DEFENSE
                                  400 AFIMY NAVY DRIVE
                                ARLINGTON. VlRGlN!A 22202




                                                                          July 13, 2000
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY AND LOGISTICS
               ASSISTANT SECRETARY OF DEFENSE (COMMAND,
                 CONTROL, COMMUNICATIONS, AND
                 INTELLIGENCE)
SUBJECT: Audit Report on a Summary of Audits of Acquisition of Information
         Technology (Report No. D-2000-162)

        We are providing this report for your information and use. Because this report
contains no recommendations, no written comments were required, and none were
received. Therefore, we are publishing this report in final form.
        We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. John A. Mitton at (703) 604-9019
(DSN 6649019) (jmitton@dodig.osd.mil) or Mr. Charles M. Santoni at
(703) 604-9051 (DSN 664-9051) (csantoni@dodig.osd.mil). See Appendix C for the
report distribution. The audit team members are listed inside the back cover.




                                        Robert j. Lieberman
                                     Assistant Inspector General
                                             for Auditing
                       Office of the Inspector General, DoD
Report No. D-2000-162                                                       July 13, 2000
  (Project No. D2000AL-0166.00)

     Summary of Audits of Acquisition of Information Technology

                                  Executive Summary

Introduction. In the DoD Appropriations Act for FY 2000, Congress reemphasized the
need for effective implementation of oversight processes associated with the Clinger-
Cohen Act of 1996. This act calls for an investment oversight process that covers the
life of each system and includes explicit criteria for analyzing projected and actual
costs, benefits, and risks associated with the investments. DoD has approximately
5,800 mission-critical or mission-essential information technology systems. Of these,
71 are categorized as Major Automated Information Systems.

Information technology comprises any equipment or interconnected subsystem of
equipment used in the automatic acquisition, storage, manipulation, management,
movement, control, display, switching, interchange, transmission, or reception of data
or information. This report summarizes 30 audit reports that address the acquisition of
information technology within the DoD. We summarized reports issued from
October 1, 1996, through March 31, 2000. Of these, 17 were prepared by the
Inspector General, DoD, 4 were prepared by the General Accounting Office, and 9
were prepared by the Service audit agencies.

Objectives. The overall objective was to summarize the results of 30 audit reports that
discussed acquisition of information technology and identify systemic issues addressed
by the reports.

Results. Acquiring information technology in accordance with Congressional direction
and Office of Management and Budget and DoD guidance continues to challenge DoD.
Our analysis of 30 reports (see Appendix B) shows that the economy and efficiency
with which information technology is acquired varies greatly among DoD
organizations. Within these 30 reports, systemic problems were identified in the
following areas:

              •   inadequate documentation/validation of the system requirements
                  (13 reports),

              •   inaccurate life-cycle cost analysis or incomplete cost data (9 reports),

              •   incomplete analysis of alternatives to assure that programs are not
                  duplicative and are most cost effective (8 reports).

              •   systems not properly categorized for oversight purposes according to
                  the acquisition criteria established in DoD policy (7 reports), and

              •   incomplete or nonexistent acquisition program baselines to record
                  cost, schedule and performance goals (7 reports).
Further, recurring problems existed in the areas of inadequate system testing, schedule
slippage, and the lack of an implementation strategy. Each of these problems was
noted in three reports. As a result of these systemic and recurring management
oversight weaknesses, DoD is acquiring information technology that may not meet the
needs of the user, which makes it difficult to meet performance measures; whose true
costs are unknown, which makes it difficult to assess return on investment; and that
may duplicate existing systems, which is contrary to Congressional direction and the
DoD policy of portfolio management.

DoD is attempting to provide the critical management oversight controls called for in
the Clinger-Cohen Act and the FY 2000 DoD Appropriations Act by instituting a
program of information technology portfolio management. Adequate implementation of
portfolio management by DoD, to include establishment of the necessary internal
management controls by the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence), is intended to reduce the instances of the problems
noted. Details of the results can be found in the finding section of this report.

Management Comments. We provided a draft of this report to management on
May 26, 2000. Because the draft report contained no recommendations, written
comments were not required, and none were received. Therefore, we are publishing
this report in final form.




                                           ii
Table of Contents

Executive Summary                                     i


Introduction
Background                                           1
Objectives                                           4

Finding
Information Technology Acquisition                   5

Appendixes
        A. Audit Process                             10
            Scope                                    10
            Government Performance and Results Act   10
        B. Summary of Prior Coverage                 12
        C. Report Distribution                       20
Background
     According to the Clinger-Cohen Act of 1996, formerly known as the
     Information Technology Management Reform Act of 1996, information
     technology comprises any equipment, or interconnected subsystem of
     equipment, used in the automatic acquisition, storage, manipulation,
     management, movement, control, display, switching, interchange, transmission,
     or reception of data or information. The act requires the establishment of an
     investment oversight process for analyzing, tracking, and evaluating the risks
     and results of all major capital investments made for information technology and
     covers the life of each system including explicit criteria for analyzing the
     projected and actual costs, benefits, and risks associated with the investments.
     The Clinger-Cohen Act also requires that before investing in information
     technology, agencies should analyze the function associated with the new
     acquisition to determine if this function could be made more efficient or would
     be better performed by the private sector. In 1998, DoD established an
     information technology functional area reform goal to institutionalize provisions
     of the Clinger-Cohen Act and provide services that satisfy customer information
     needs.


Office of Management and Budget Guidance
     Office of Management and Budget Circular No. A-11, Part Three, “Planning,
     Budgeting, and Acquisition of Capital Assets,” 1999, provides guidance for
     implementing the Clinger-Cohen Act. This circular emphasizes the need for
     realistic cost, schedule, and performance baselines. The circular requires
     constant monitoring of actual work performed against the baselines that should
     be used to revise estimates of cost, schedule, and performance as appropriate.

     Office of Management and Budget Circular A-109. “Major Systems
     Acquisitions,” April 1976, provides policies for the acquisition management of
     major systems. The circular requires that acquisition programs maintain
     capabilities to:

        •   predict, review, assess, negotiate, and monitor program costs;

        •   assess acquisition cost, schedule, and performance experience against
            predictions, and report on such assessments;

        •   make new assessments where significant cost, schedule, or variances
            occur;

        •   estimate life-cycle costs during system design-concept evaluation and
            update cost estimates throughout the acquisition life cycle to evaluate
            appropriate trade-offs among investment costs, ownership costs,
            schedules and performances; and

        •   use independent cost estimates for comparisons, where feasible.



                                         1
     Office of Management and Budget Circular A-123, “Management
     Accountability and Control,” June 1995, implements the Federal Manager’s
     Financial Integrity Act of 1982. The circular defines management controls as
     the organization, policies, and procedures used to reasonably ensure that
     programs achieve their intended results; resources are consistent with the agency
     mission; programs are protected from waste, fraud, and mismanagement; laws
     and regulations are followed; and reliable and timely information is obtained,
     maintained, reported, and used for decisionmaking. Further, the circular
     requires management controls to be an integral part of the mission area,
     planning, budgeting, management, accounting, and auditing cycles.


DoD Policy
     DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, implements
     Office of Management and Budget Circulars A-109 and A-123 and was modified
     to reflect requirements from the Clinger-Cohen Act. The directive states that
     the primary objective of the defense acquisition system is to acquire quality
     products that satisfy the needs of operational users with measurable
     improvements to mission accomplishments, in a timely manner, and at a fair and
     reasonable price. The directive emphasizes the importance of rigorous internal
     controls with control objectives for cost, schedule, and performance parameters
     embodied in acquisition program baselines. Also, the directive provides the
     basic criteria for defining an information technology acquisition program as a
     Major Automated Information System (MAIS). A MAIS is any program so
     designated by the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) or estimated to require program costs in any
     single year in excess of $30 million in FY1996 constant dollars, total program
     costs in excess of $120 million in FY1996 constant dollars, or total life-cycle
     costs in excess of $360 million in FY1996 constant dollars. The Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     has the ultimate oversight responsibility for MAIS programs.


Congressional Direction and DoD Corrective Action
     The House Appropriations Committee Report 105-591 that accompanied the
     DoD Appropriations Act for FY 1999, reflected Congressional concern about
     the adequacy of DoD oversight of its information technology systems.
     Specifically, Congress required that most information technology acquisitions be
     categorized as investments to be financed with procurement or research,
     development, test, and evaluation funds as opposed to operations and
     maintenance funds. As a corrective action, the Under Secretary of Defense
     (Comptroller) issued policy that clarifies procedures for funding information
     technology systems.

     In the Conference Report for the DoD Appropriations Act for FY 2000,
     Congress expressed continued concern with DoD acquisition practices for
     information technology and reemphasized the importance of the Clinger-Cohen
     Act by requiring that all 71 MAISs be certified as being developed in
     accordance with the Clinger-Cohen Act prior to being approved to the next


                                         2
     milestone level. The DoD Chief Information Officer must provide those
     certifications to Congress. Also, the Conference Report to the Appropriations
     Act requires that the approximately 5,800 mission-critical and mission-essential
     information technology systems be registered with the DoD Chief Information
     Officer.

     To establish the management controls necessary to comply with the Clinger-
     Cohen Act and subsequent Congressional direction and Office of Management
     and Budget guidance, the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) is beginning to implement the portfolio
     management concept. This oversight concept, managed by the DoD Chief
     Information Officer, requires that information technology investment decisions
     be directly linked to DoD mission, warfighter, and functional goals, and
     outcomes. Information technology investments must result in measurable
     improvements to DoD mission-related and administrative processes, and
     processes and systems must be certified as compliant with the Clinger-Cohen
     Act and any related reform legislation.

     A portfolio will be the group of capabilities, resources, management, and
     related investments that are required to accomplish a mission-related or
     administrative outcome. One of the principal features of portfolio management
     is the establishment of an Overarching Integrated Product Team which will
     develop and implement procedures to provide visibility in investments to ensure
     that managing procedures are in accordance with the Clinger-Cohen Act. A key
     feature of portfolio management is the performance of mission analysis in which
     principal staff assistants, Joint Staff, and Components determine mission area
     warfighter, business, and administrative needs, formulate strategic plans and
     goals to meet those needs, identify performance gaps and opportunities, and
     provide a performance based plan to fulfill the mission area needs. DoD
     5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs and
     Major Automated Information System Acquisition Programs,” March 15, 1996,
     is undergoing revision to require the use of portfolio management.


Inspector General, DoD, Testimony
     For several years, in semiannual reports to Congress and testimony, the
     Inspector General, DoD, (IG, DoD) has emphasized the weakness in the
     acquisition of information technology. For example, on February 25, 1999, the
     IG, DoD, testified before the Subcommittee on National Security, Veterans
     Affairs, and International Relations, Committee on Government Reform, United
     States House of Representatives, on DoD vulnerabilities to fraud, waste, and
     abuse. The IG, DoD, stated that DoD faces major problems related to the
     acquisition of information technology and has categorized the acquisition of
     information technology as one of 10 high-risk areas for DoD because
     information technology acquisition projects have tended to overrun budgets,
     evade data standardization and interoperability requirements, and shortchange
     user needs. The IG, DoD, noted that audits have indicated that cost, schedule,
     and performance baselines are not always established for information technology
     development projects. The chart on page 8 is a matrix of General Accounting
     Office (GAO), IG, DoD, and Service audit agency reports relating to


                                         3
     information technology acquisition weaknesses. Of the 30 reports issued from
     October 1, 1996, until March 31, 2000, 17 reports were issued by the IG, DoD,
     4 by GAO, and 9 by the Service audit agencies.


Objectives
     The overall objective was to summarize the results of 30 audit reports that
     discussed acquisition of information technology and identify systemic issues
     addressed by the report. See Appendix A for the discussion of the scope.
     Appendix B contains a summary of each report and the corrective action taken.




                                        4
       Information Technology Acquisition
       Acquiring information technology in an efficient and economical manner
       continues to challenge DoD. Review of 30 reports (see Appendix B)
       disclosed that the economy and efficiency with which information
       technology is acquired varies greatly among DoD organizations. Within
       these 30 reports, systemic problems were identified in the following
       areas:

         •   inadequate documentation/validation of the system requirements
             (13 reports),

         •   inaccurate life-cycle cost analysis or incomplete cost data
             (9 reports),

         •   incomplete analysis of alternatives to assure that programs are not
             duplicative and are most cost effective (8 reports).

         • systems not properly categorized for oversight purposes according
           to the acquisition criteria established in DoD policy (7 reports), and

         •   incomplete or nonexistent acquisition program baselines to record
             schedule and performance goals (7 reports).

       While not systemic, there were recurring problems in the areas of
       inadequate system testing, schedule slippage, and the lack of an
       implementation strategy. Each of these problems was noted in three
       reports. These systemic and recurring problems resulted from lack of
       program management attention to detail and failure of overall DoD
       oversight management controls to enforce policies designed to ensure
       sound business practices such as accurate preparation of and adherence
       to costs, schedule, and performance baselines. As a result of these
       systemic and recurring management oversight weaknesses, DoD is
       acquiring information technology that may not meet the needs of the
       user, which makes it difficult to meet performance, whose true costs are
       unknown, which makes it difficult to assess return on investment;
       measures; and that may duplicate existing systems, which is contrary to
       Congressional direction and the DoD policy of portfolio management.

Documentation/Validation of System Requirements. Thirteen of the
information technology acquisition reports noted inadequate documentation or
validation of system requirements. For the Audit of “Requirements Planning
and Impact on Readiness of Training Simulators and Devices,” we raised
concern that the Joint Requirements Oversight Council process was not properly
used to validate the requirements for two systems; thus, resulting in the
acquisition of two seemingly duplicative systems. Similarly, due to a failure to
adequately validate requirements, the Defense Logistics Agency Electronic
Catalog Pilot Program is partially duplicative of a General Services
Administration program. The Standard Procurement System needed additional
refinements to meet user needs and to standardize procurement policies,
processes, and procedures. We found that 13 of 25 fielded sites for the Standard


                                    5
Procurement System were not using the system because critical system functions
were either not included in the initial versions of the system or were not
functioning. The Air Force Audit Agency found that 6 of 12 automated
intelligence information systems that were reviewed did not document the need
for the system. The Army Audit Agency found that user requirements were
neither identified nor satisfied in the acquisition of the Army’s portion of the
Global Command and Control System. The GAO found that the Army
developed digitized battlefield systems without testing to assure that the
requirement to combat the threat of command and control warfare attacks was
satisfied. Failure to properly document and validate requirements increases the
risk of developing systems that fail to meet the needs of intended users or waste
funds by duplicating existing systems (see Appendix B, reports 1, 5, 9, 11, 13,
14, 21, 22, 23, 24, 25, 26, 27).

Life-cycle Cost Analysis or Cost Data. Nine of the information technology
acquisition reports summarized in Appendix B note that system life-cycle cost
analyses were either inaccurate or that cost data was incomplete. For example,
the program management for the Joint Total Asset Visibility System did not
establish cost baselines; therefore, variances could not be analyzed and budget
submissions were not verified. For the Composite Health Care System II, cost
baselines were not established and funding was combined with that of other
systems making it difficult to determine system cost. The Air Force failed to
establish the proper management controls to provide for accurate life-cycle
costing for the Defense Civilian Personnel Data System. The life-cycle costs for
the Corporate Executive Information System and the Defense Security
Assistance Management System were not adequately estimated; therefore, these
systems were not categorized as MAIS and did not receive appropriate oversight
although they should have been categorized as such. GAO identified a general
pattern within DoD of failure to perform the accurate cost calculations to
determine return on investment. Without accurate cost data, it is difficult, at
best, to properly budget for and categorize systems during development thus
risking the development of high-cost systems without proper oversight (see
Appendix B, reports 3, 4, 9, 12, 14, 19, 21, 24, 30).

Analysis of Alternatives. Eight reports noted problems with the Analysis of
Alternatives. The GAO found that the lack of independent verification of
Analysis of Alternatives was a widespread problem and that DoD was
automating functions that were planned for outsourcing. We found that the
Defense Logistics Agency Electronic Catalog Pilot Program was duplicative of
General Service Administration efforts, and no clear Analysis of Alternatives
was undertaken for the Joint Accounting System Initiative. The Air Force Audit
Agency found that alternatives were not considered in replacing computers
versus the less costly upgrade of older computers. An Analysis of Alternatives
is important to assure that prior to developing a new system there are not less
costly acceptable alternatives to the new development (see Appendix B, reports
10, 17, 21, 22, 23, 26, 27, 30).

Acquisition Categorization. Seven of the information technology acquisition
reports noted that systems were not placed in the proper acquisition category for
proper oversight as defined in DoD Directive 5000.1, “Defense Acquisition,”
March 15, 1996. This issue is closely related to the prior issue of inadequate
life-cycle cost analysis and cost data. Had adequate cost data and projections


                                    6
been available, it would have been more obvious that these systems were
miscategorized. These reports identify five systems that should have been
categorized as a MAIS but were not. The five systems are the Corporate
Executive Information System, the Defense Security Assistance Management
System, the Joint Intelligence Virtual Architecture, the Training Simulators and
Devices, and the Joint Total Asset Visibility System. Miscategorization results
in significant expenditures of funds without the required oversight processes
being implemented, thus risking program failure of systems that have expended
considerable funds. Miscategorization is also often a root cause associated with
failure to establish acquisition program baselines, and calculate accurate life-
cycle cost data (see Appendix B, Reports 4, 6, 12, 13, 14, 24, 25).

Acquisition Program Baselines. Seven of the information technology
acquisition reports noted incomplete or nonexistent acquisition program
baselines. For example, the program office for the Joint Total Asset Visibility
System had not established baselines for acquisition cost, schedule, and
performance; therefore variances could not be calculated to determine if the
system was being acquired in the intended manner. For the Composite Health
Care System II, baselines had been established but evaluation was insufficient to
determine whether program execution was within cost, schedule, performance
and exit criteria parameters. In the case of the Corporate Executive Information
System, the fact that it was not properly categorized as a MAIS led to the lack
of established baselines. The Air Force Audit Agency found that the Airborne
Information Transmission Program lacked the acquisition baselines necessary to
measure program success. Without the establishment and continued evaluation
of acquisition program baselines, it is difficult to determine if a system is being
acquired in an efficient and effective manner (see Appendix B, reports 4, 12,
14, 16, 19, 24, 29).

Miscellaneous Recurring Problems. While not systemic, there were several
other issues that appeared in three information technology acquisition reports.
Testing was one of these issues. Both the Defense Civilian Personnel Data
System and the Defense Security Assistance Management System lacked a Test
and Evaluation Master Plan. Also, the GAO raised concern that the Army has
not sufficiently tested its systems for the electronic warfare and information
warfare threat. Testing is necessary to assure systems work properly and are
properly protected against various threats (see Appendix B, reports 7, 14, 19).

The Corporate Executive Information System, the Defense Security Assistance
Management System, and the Standard Procurement System experienced
schedule slippages. Proper oversight and planning can minimize the instances
of schedule slippages that usually result in increased costs (see Appendix B,
reports 9, 14, 24).

Three systems were reported to have had faulty implementation strategies; the
Defense Security Assistance Management System, the Defense Property
Accountability System, and the DoD Electronic Mall. Without a proper
implementation strategy, an otherwise well-functioning system may not be fully
used and fielded to the appropriate users (see Appendix B, reports 3, 13, 14).
The following matrix categorizes the weaknesses in the 30 reports that were
reviewed.



                                     7
                Matrix of Information Technology
                Acquisition Weaknesses
Report No.   Inaccurate    Inadequate     Wrong       Inadequate   Inadequate   Schedule    Inadequate     Inadequate
             Cost Data/   Requirement   Acquisition    Baselines     Testing      Slip     Implementa-     Analysis of
              Analysis    Documents/     Category                                          tion Strategy   Alternatives
                           Validation
GAO


NSIAD-00-                     X
56
NSIAD-99-                                                              X
166
AIMD-98-5        X            X                                                                                 X
AIMD-97-6        X                                                                                              X
IG, DoD


D-2000-063
D-2000-056       X                                                                              X
D-2000-055       X                          X             X
00-027                        X
99-OIR-009                                  X
99-220
99-166           X            X                                                    X
99-068           X                          X             X
98-135                        X             X                                                   X
98-095           X            X             X             X            X           X            X
98-057                                                    X
98-041           X                                        X            X
98-013
97-206                        X                                                                                 X
97-205                        X                                                                                 X
97-152           X            X             X             X                        X
97-138                        X             X
ARMY
AUDIT
AGENCY
AA99-147                                                                                                        X
AA99-87                       X
AA98-108
AA97-53
NAVAL
AUDIT
SERVICE
016-98
AIR
FORCE
AUDIT
AGENCY
97058036                                                                                                        X
96058037                      X                                                                                 X
96054009                      X                                                                                 X
96064027                                                  X




                                                          8
Conclusion
    As illustrated in the 30 reports relating to DoD information technology
    acquisition issued from October 1, 1996, to March 31, 2000, DoD has yet to
    achieve its information technology functional area reform goal to institutionalize
    provisions of the Clinger-Cohen Act. The eight categories of acquisition
    weaknesses noted in this report are typical of areas that would be examined if a
    rigid acquisition oversight program existed. Because management controls were
    either not in place or not being followed, systems continued to be acquired by
    DoD whose full costs were not properly estimated, did not meet user needs,
    duplicated existing systems, and were not placed into the proper acquisition
    category.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) is attempting to correct weaknesses in its acquisition of information
    technology by implementing a process of portfolio management oversight to
    better select the best mix of information technology investments to achieve
    mission outcomes. The effort by DoD to put in place the management controls
    necessary to adequately monitor the implementation of the Clinger-Cohen Act
    through the portfolio management process is intended to reduce the risk of
    further significant problems with the acquisition of information technology.
    Until a successful acquisition oversight process is fully implemented within
    DoD, efficient and economical acquisition of information technology will
    continue to challenge the DoD.




                                         9
Appendix A. Audit Process

Scope and Methodology
    Work Performed. This report summarizes DoD information technology
    acquisition weaknesses identified in 30 audit reports issued by the General
    Accounting Office and the Office of the Inspector General, DoD, from
    October 1, 1996, to March 31, 2000. GAO issued 4 such DoD information
    technology acquisition reports, IG, DoD, issued 17 reports, and the Service
    audit agencies released 9 such reports in the period chosen for review. The
    reports were analyzed to determine systemic weaknesses. A summary of each
    report is included in Appendix B.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goals, and performance measures.

    FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure (00-DoD-2).

           •   FY 2000 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving efficiency of the DoD acquisition
               process. (00-DoD-2.4)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

               Performance Measure 2.5.3: Qualitative Assessment of Reforming
               Information Technology Management. (01-DoD-2.5.3)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

    Information Technology Management Functional Area.

           •   Objective. Provide services that satisfy customer information needs.
               Goal. Improve information technology management tools. (ITM-2.4)




                                       10
       •   Objective. Reform information technology management processes to
           increase efficiency and mission contribution. Goal. Institutionalize
           provisions of the Information Technology Management Reform Act
           of 1996. (ITM-3.1)

       •   Objective. Reform information technology management processes to
           increase efficiency and mission contribution. Goal. Institute
           fundamental information technology management reforms. (ITM-3.2)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the Defense Information Management and Technology high-risk area.




                                   11
Appendix B. Summary of Prior Coverage
During the period of October 1, 1996, to March 31, 2000, the GAO issued 4 reports,
the IG, DoD issued 17 audit reports, and the Service audit agencies released 9 reports
on the topic of acquisition of information technology. The issues from these 30 reports
are illustrated in a matrix on page 8. These 30 reports are summarized as follows:
1. General Accounting Office Report No. NSIAD-00-56, “Contract Management:
Few Competing Proposals for Large DoD Information Technology Orders,”
March 20, 2000, OSD Case No. 1941. A review of 22 large information technology
orders worth $533 million disclosed that the work descriptions for most of the orders
defined tasks broadly. Because the work was broadly defined, the orders did not
establish fixed prices for the work but provided for reimbursement of contractor’s
costs. Further, several broadly defined orders were later defined by sole-source work
orders. It was recommended that DoD not award large, undefined orders and
subsequently issue sole-source work orders for specific tasks. Management concurred
with the recommendation.

2. Inspector General, DoD, Report No. D-2000-063, “Information Technology
Funding in the Department of Defense,” December 17, 1999. The FY 2000 budget
submitted by DoD did not comply with House Appropriations Committee Report No.
105-591 direction to correct information technology funding inconsistencies. This
occurred because guidance contained in DoD Regulation 7000.14-R, “DoD Financial
Management Regulation,” June 1998, addressing the funding of information technology
systems, was inconsistent and provided broad exceptions. As a result, Operations and
Maintenance appropriations, rather than Research, Development, Test, and Evaluation
appropriations, were requested in the DoD FY 2000 budget submission for software
modifications made to commercial off-the-shelf information technology systems, system
solution definitions, software license acquisitions, and program support. As a
corrective action, the Under Secretary of Defense (Comptroller) issued policy that will
clarify procedures for funding information technology systems by requiring
modernization efforts to be budgeted with Research, Development, Test, and
Evaluation appropriations.

3. Inspector General, DoD, Report No. D-2000-056, “DoD Electronic Mall
Implementation Planning,” December 15, 1999. The Electronic Mall is a work in
progress and updates are being made to improve its usefulness as a viable source of
supply. However, management needed to address several implementation issues that
were barriers to the Military Departments using the system including duplication of
General Services Administration programs, development of metrics, and a system to
measure the effectiveness of the Electronic Mall, possible duplication of payment of
bank credit card fees, inadequate integrated comparison shopping system, and accuracy
of cost recovery rate. Those unresolved implementation issues existed because the
normal implementation planning process was not followed. Audit follow-up action is
ongoing.

4. Inspector General, DoD, Report No. D-2000-055, “Acquisition Management of
the Joint Total Asset Visibility System,” December 14, 1999. The Joint Total Asset
Visibility System program office did not establish sufficient management controls and
appropriate oversight was not provided for the acquisition of the Joint Total Asset
Visibility In-Theater and Global Automated Information Systems. As a result,


                                          12
acquisition cost, schedule, and performance baselines were not established, variances
were not computed to measure results, assess controls, and oversee acquisitions; and
budget submissions were not verified and validated. Management responded by
establishing an integrated product team.

5. Inspector General, DoD, Report No. 00-027, “Automated Systems Used to
Prepare the Defense Logistics Agency Working Capital Fund Financial
Statements,” October 28, 1999. The Defense Logistics Agency and the Defense
Finance and Accounting Service Center, Columbus, Ohio, did not adequately identify
and evaluate critical accounting, finance, and feeder systems. Although limited reviews
of the accounting and finance systems were performed, systems problems were not
identified and fully documented. Additionally, the Defense Logistics Agency annual
statement of assurance did not adequately reflect the effect that the system and related
control deficiencies had on the ability to prepare financial statements. The Defense
Logistics Agency did not define and evaluate the complete system architecture it used to
capture the financial data to prepare the Working Capital Fund financial statements or
the effort required to correct the deficiencies. Costly system modifications could result
if the requirements are not considered when new systems are fully implemented.
Management responded by reviewing the accounting and finance systems, coordinating
a strategy to replace the systems, assigning specific responsibilities for corrective
action, and identifying and evaluating all feeder systems.

6. Inspector General, DoD, Report No. 99-OIR-009, “The Joint Intelligence
Virtual Architecture Program,” September 3, 1999. Program Management provided
a clear program vision and the program was on schedule towards achieving that vision.
There were no apparent indications of weaknesses in the management of the program or
financial resources. However, the system was not categorized as a MAIS, even though
it meets the cost thresholds established to be categorized as such. The Director of the
Program verbally agreed to bring the system into compliance with MAIS standards for
requirements documentation, but the system is still not categorized as a MAIS.

7. General Accounting Office Report No. NSIAD-99-166, “Battlefield Automation:
Opportunities to Improve the Army’s Information Protection Effort,” August 11,
1999, OSD Case No. 1847. While the Army has carried out a number of tests of
defensibility of digitized battlefield systems and forces, its protection plan did not
assure sufficient vulnerability assessments. The Army lacked a detailed plan for
specific systems, networks, and infrastructure for its information protection
requirements. Without such specific plans, system vulnerabilities may not be exposed,
adequate funding to counter the threat may not be available, and systems can be
developed that do not meet the requirements of the Army’s overall protection plan.
The Army took corrective action by revising its information protection plan, reviewing
and revising Operational Requirements Documents, and testing for susceptibility to
electronic and information warfare threats.

8. Inspector General, DoD, Report No. 99-220, “Computer Equipment
Acquisitions for the Defense Information Systems Agency Megacenters,” July 21,
1999. This report addressed allegations that the Defense Information Systems Agency
unnecessarily purchased new mainframe computers for its Megacenters. Specifically,
the report addresses allegations that the prime contractor misled the government into
purchasing new computer equipment rather than upgrading existing equipment. The
constituent also alleged the Defense Information Systems Agency offered the



                                           13
constituent’s company a contract to maintain existing equipment under false pretenses.
The allegations were not substantiated and the report contains no findings or
recommendations.

9. Inspector General, DoD, Report No. 99-166, “Initial Implementation of the
Standard Procurement System,” May 26, 1999. The Standard Procurement System
evolutionary software approach did not provide some critical functions to meet user
needs or the mission need to replace legacy systems, and the program experienced
schedule slippage. DoD may be required to obtain sole-source support for the system’s
30-year life cycle. Thirteen of 25 fielded sites were not using the system because
critical system functions that had been documented before system development were
either not included in the system or not functioning. This occurred because DoD
guidance on the acquisition of commercial products for MAIS was not clear; the
Director, Defense Procurement, selected an acquisition strategy to purchase commercial
computer software that required substantial modification; the acquisition strategy for
this system of purchasing commercial computer software limited DoD rights to modify
and maintain the software; and the Director, Defense Procurement, did not develop
standard policies, processes, and procedures for using the system. Management agreed
to issue guidance on these topics and will accept funds and requirements from users for
coordination of added contract requirements. A follow-on audit of this system is
ongoing.

10. Army Audit Agency Report No. AA99-147, “Digitization of the Battlefield:
Tactical Internet,” March 15, 1999. The requirements and testing approach for the
Tactical Internet was generally effective for managing its development. The Army
Audit Agency recommended that an integrated process team for examining options for
funding digitization initiatives be established and a tactical internet requirements
manager be appointed. Management agreed to implement the recommendations.

11. Army Audit Agency Report No. AA99-87, “Global Command and Control
System-Army Program,” January 22, 1999. The combat developer and the material
developer did not adequately identify or satisfy user requirements for the Global
Command and Control System-Army Program. The Army Audit Agency
recommended that integrated concept teams be established to identify all user
requirements and that the operational requirements document for the system be finalized
and exit criteria be developed for developmental phases. Management agreed to
implement the recommendations.

12. Inspector General, DoD, Report No. 99-068, “Acquisition Management of the
Composite Health Care System II Automated Information System,” January 21,
1999. Project management information for the system increments 1 and 2 was
insufficient to determine whether program execution was within cost, schedule,
performance, and exit criteria parameters. This occurred because the Assistant
Secretary of Defense (Health Affairs) and the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) did not establish acquisition
baselines. Also, work breakdown structure linking financial accountability needed to
be implemented to improve the ability to evaluate whether program results deviate from
baseline parameters for costs, schedule, performance, and milestone decision authority
exit criteria. Also, funding visibility for this system was limited as it was combined
with funding for other systems. Management completed corrective action by instituting
a project management control system to track and forecast costs, schedule,
performance, and exit parameters and reconcile and validate results and conclusions


                                          14
derived from program documentation. Also, management modified the Milestone II
exit criteria to address auditor concerns and established the program with its own
distinct funding line item.

13. Inspector General, DoD, Report No. 98-135, “Implementation of the Defense
Property Accountability System,” May 18, 1998. This system was developed to
remedy a systemic weakness noted in the DoD Annual Statement of Assurance that
DoD financial reporting of personal and real property was unreliable. The audit
concluded that the system did not remedy that systemic weakness. The system has not
captured all personal and real property, provided standard property reporting
requirements, or developed a coordinated DoD-wide implementation strategy. At least
$92 million may be spent on this system which, as designed, will capture barely 25 per
cent of DoD personal and real property. To correct this situation, management revised
its implementation strategy.
14. Inspector General, DoD, Report No. 98-095, “Defense Security Assistance
Management System,” March 24, 1998. This system was not being managed with
controls appropriate to a system of its cost and size, and the program experienced
schedule slippage. According to DoD Regulation 5000.2-R, any program with total
life-cycle costs estimated to exceed $360 million should be classified as a MAIS. This
system was not categorized as such, despite the fact that its estimated life-cycle cost is
$500 million. For this system, a mission needs statement; an operational requirements
document; a program baseline; an acquisition plan; and a test and evaluation master
plan to assist in managing the cost, schedule, and performance parameters of the system
were not prepared. Management has taken corrective action by preparing all of these
documents; however, the program is still not classified as a MAIS. A follow-on audit
of the system is ongoing.

15. Army Audit Agency Report No. AA98-108, “Corps of Engineers Financial
Management System,” February 13, 1998. Management controls over the Corps of
Engineers Financial Management System were generally adequate to meet user needs
and produce reliable and timely financial information. However, the Army Corps of
Engineers needed to correct errors in its general ledger correlations and improve
controls over specific individual expenditure authority for foreign military sales. The
Corps made most of the suggested corrections during the course of the audit.

16. Inspector General, DoD, Report No. 98-057, “Defense Finance and
Accounting Service Acquisition Program for the Electronic Document Management
System,” January 27, 1998. While there was no finding or recommendations per se,
suggestions were made for improving this MAIS that were incorporated by the Program
Office during the course of the audit. The suggestions were generally related to the
establishment of baselines. The Program Office used the integrated product team
approach to conduct testing, prepare life-cycle documentation, identify and resolve
issues, and to make sound and timely suggestions to facilitate program decision-
making.

17. Air Force Audit Agency Report No. 97058036, “Computer Upgrades and
Random Access Memory Chips,” January 9, 1998. The Air Force could improve
management of computer upgrades and memory chips. Specifically, personnel could
obtain computer upgrade kits rather than procuring new computers and procure
memory chips through more economical methods. Also, personnel could enhance
accountability and control of memory chips. Management concurred with the intent of


                                           15
the recommendations and agreed that upgrading computers is a viable alternative to
purchasing new computers. Also, local control procedures consistent with the Federal
Acquisition Regulation will be established.

18. Naval Audit Service Report No. 016-98, “Acquisition of Computer Equipment
and Displays on Air Force contracts,” January 8, 1998. This report focused on the
development and acquisition of Navy tactical computer and display equipment and
systems on U.S. Air Force contracts via interagency fund transfers. The Naval Audit
Service identified 12 projects totaling approximately $55 million that were being
performed on Air Force contracts and funded by the Navy. Of this amount, $52
million was for three projects; therefore, this report focuses on those three projects.
The audit concluded that Navy managers did not adhere to acquisition and
appropriations policies and Congressional guidance concerning the development and
procurement of shipboard tactical systems. The Navy also used Other Procurement,
Navy and Ship Construction, Navy appropriations to fund development of new
computers/displays that duplicate development of tactical display systems. Research,
Development, Test, and Evaluation, Navy funds should have been used. Management
generally did not concur with the finding or recommendations and the report was
redirected to the Navy Office of the General Counsel for decision. The Office of the
General Counsel required that some but not all recommended adjusting entries be made.

19. Inspector General, DoD, Report No. 98-041, “Acquisition Management of the
Defense Civilian Personnel Data System,” December 16, 1997. The Air Force had
not established adequate management controls in this system’s acquisition management
structure to clearly define lines of responsibility, authority, and accountability as
required by DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996. As a
result, the Air Force could not ensure that it has adequately managed the high-level of
risk associated with key areas such as testing, information assurance, and life-cycle
costing. Management took corrective action to define lines of responsibility, authority,
and accountability for the system’s acquisition. Also, a program executive officer was
appointed for the system, and management conducted a comprehensive in-process
review of the program and instituted an integrated product team.

20. Inspector General, DoD, Report No. 98-013, “Second User Acceptance Test of
the Electronic Document Management System at the Defense Finance and
Accounting Service Operating Location Omaha, Nebraska” October 24, 1997. The
Defense Finance and Accounting Service had resolved the functional deficiencies
reported in the first user acceptance test. The system appears to be capable of
performing, in an operational environment, the tasks assigned for the vendor payment
process. The report contained no finding or recommendations.

21. General Accounting Office Report No. AIMD-98-5, “Defense IRM: Poor
Implementation of Management Controls has Put Migration Strategy at Risk,”
October 20, 1997, OSD Case No. 1427. From 1995 through 2000, DoD planned to
spend $18 billion on migration of outdated systems to modern systems. Despite this
substantial investment, DoD did not adhere to decision-making and oversight processes
it established to ensure that the economical and technical risks associated with migration
processes have been mitigated. DoD did not fully ensure that economic analyses for
migration systems were prepared and reviewed and that the systems comply with
technical and data standards. By way of corrective action, management is updating
migration policy to be consistent with the Information Technology Reform Act of 1996.



                                           16
22. Inspector General, DoD, Report No. 97-206, “Defense Finance and
Accounting Service Acquisition Strategy for a Joint Accounting System Initiative,”
August 22, 1997. The Defense Finance and Accounting Service developed an accurate
and complete mission needs statement that demonstrated the need for an accounting
system. During the course of the audit, Defense Finance and Accounting Service
management addressed audit concerns by revising the mission needs statement to better
present nonmaterial alternatives to the current systems; clarifying the effects of data
from other systems on the projected benefits of a new accounting system; explaining
more fully the customer’s use of the system; outlining the use of the new system
throughout DoD; recognizing the need for evaluating and improving business practices;
and projecting the benefits to be achieved from implementing a new accounting system.
However, subsequent audits raised additional concerns about acquisition planning for
this system.
23. Inspector General, DoD, Report No. 97-205, “Dual Management of
Commercially Available Items- Defense Logistics Agency Electronic Catalog Pilot
Program,” August 15, 1997. The Defense Logistics Agency was commended for
starting an electronic catalog program from which customers may browse, select, and
order commercially available items. However, portions of the program duplicated
General Services Administration supply programs, particularly the Federal Supply
Schedule and Advantage programs. Without programmatic change, there is no
assurance that the system provides value to DoD. Also, customers ordering items
through the electronic catalog could pay higher prices than if the same items were
ordered through the General Services Administration. The Defense Logistics Agency
efforts to increase sales through the electronic catalog did not include management
controls to preclude commercial items that were not predominantly military and
available from the General Services Administration. In essence, this was a failure to
validate all system requirements to assure that aspects of the capability did not already
exist. Management agreed to conduct a survey of customers to determine whether the
electronic catalog should contain items that are commercially available through the
General Services Administration.

24. Inspector General, DoD, Report No. 97-152, “Corporate Executive
Information System,” June 6, 1997. The system was not classified as a MAIS, and
its life-cycle cost was not adequately estimated and reported. As a result, development
risks, such as not meeting the needs of system users; slipping deployment schedules;
incurring additional costs due to delays in the shutdown of existing systems; and the
system not representing the best value solution for meeting user requirements were not
mitigated. During the course of the audit, the Army Surgeon General Program
Management Office transferred system approval authority to the MAIS Review
Council. Because the system was reclassified during the audit as a MAIS, the
additional controls associated with the new designation were deemed sufficient such that
the report contained no recommendations.

25. Inspector General, DoD, Report No. 97-138, “Requirements Planning and
Impact on Readiness of Training Simulators and Devices,” April 30, 1997. DoD
developed and procured large-scale computer training simulation programs without
adequate control and oversight. As a result, DoD senior management has not received
MAIS reporting and has not conducted milestone decision reviews for the large-scale
training simulations. In addition, the Defense Advanced Research Projects Agency and
the Joint Staff have investment plans to develop redundant, joint computer training


                                            17
simulations. Also, the Army, the Navy, and the Air Force have not shown that large-
scale computer training simulations are effective. Management took corrective action
by establishing policy and strategy to better manage and oversee the acquisition of
large-scale training simulation systems.

26. Air Force Audit Agency Report No. 96058037, “Automated Intelligence
Information Systems Development,” March 19, 1997. The Air Force did not
adequately control development efforts, document the need, or obtain higher-level
approval and subsequent funding for 6 of 12 automated intelligence information systems
reviewed. Without validated needs and proper approvals, Air Force personnel could
duplicate system capabilities of other Air Force or DoD activities. Also, the Air Force
had not obtained approval to develop systems as migration systems. Independently
developing systems without obtaining migration approval increases the possibility of
stand-alone, noninteroperable systems that may not be effective during contingency
operations. Management officials agreed with the overall results. The corrective
actions taken or planned were considered responsive to the issues and
recommendations. Corrective actions included nominating systems for migration status
approval and discontinuing development of those systems not approved.

27. Air Force Audit Agency Report No. 96054009, “Combat Ammunition
System,” January 17,1997. The Combat Ammunition System required additional
controls to implement federal financial system control requirements and to correct
modification and development efforts. Specifically, the system did not comply with 10
of the 17 mandated financial system controls. In addition, system modification and
development efforts duplicated DoD system development. Further, Air Force
management continued to modify and upgrade both the Air Force-level and command-
level components even though DoD designated both as legacy systems. Management
officials agreed with the overall audit results and planned to request waivers from the
Corporate Information Management directives to continue their modification and
upgrade initiatives. The management actions were considered responsive.

28. Army Audit Agency Report No. AA97-53, “Combat Service Support Control
System,” December 12, 1996. The combat developer generally identified user
requirements for combat service support. The Combat Service Support Control System
was being developed to satisfy most combat service support requirements. However,
material and combat developers needed to improve processes to make sure remaining
requirements were satisfied. Management undertook corrective action during the audit.

29. Air Force Audit Agency Report No. 96064027, “Airborne Information
Transmission Program,” November 29, 1996. The Air Force did not follow existing
policy and direction in executing the subject program. The Airborne Information
Transmission Program acquisition managers did not establish exit criteria for the
current program acquisition phase. Also, the program manager did not prepare an
acquisition program baseline to establish cost, schedule, and performance thresholds.
As a result, program management did not have well-defined goals and objectives to
manage and measure program progress. Management took satisfactory corrective
action including proposing a set of exit criteria and acquisition program baselines.




                                          18
30. General Accounting Office Report No. AIMD-97-6, “Defense IRM: Strategy
Needed for Logistics Information Improvement Efforts,” November 14, 1996, OSD
Case No. 1219. Continued deployment of information systems by DoD using a
migration strategy for the depot maintenance, material management, and transportation
business areas will not likely produce the significant improvements originally
envisioned. DoD continued to deploy information systems that are linked to the same
business functions it wishes to make more efficient and economical through outsourcing
and privatization. DoD has not taken the fundamental steps necessary to ensure that the
automated systems it deploys will yield a positive return on investment. Management
took corrective action by creating a Strategic Information Resources Plan.




                                          19
Appendix C. Report Distribution

Office of the Secretary of Defense
  Under Secretary of Defense (Comptroller)
    Deputy Chief Financial Officer
    Deputy Comptroller (Program/Budget)
    Director, Program Analysis and Evaluation
  Under Secretary of Defense (Acquisition, Technology and Logistics)
  Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence)
    Deputy Chief Information Officer, Office for Investment and Acquisition
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Logistics Studies Information Exchange

Joint Staff
  Director, Joint Staff
    Director, Command, Control, Communications, and Computers

Department of the Army
  Assistant Secretary of the Army (Financial Management and Comptroller)
  Chief Information Officer
  Auditor General, Department of the Army

Department of the Navy
  Naval Inspector General
  Chief Information Officer
  Auditor General, Department of the Navy
  Superintendent, Naval Postgraduate School

Department of the Air Force
  Assistant Secretary of the Air Force (Financial Management and Comptroller)
  Chief Information Officer
  Auditor General, Department of the Air Force




                                        20
Other Defense Organizations
  Director, Defense Contract Audit Agency
  Director, Defense Finance and Accounting Service
  Director, Defense Information Systems Agency
  Director, Defense Logistics Agency
  Director, National Security Agency
     Inspector General, National Security Agency
  Director, Resource Management, Defense Commissary Agency
  Inspector General, Defense Intelligence Agency
  Defense Systems Management College

Non-Defense Federal Organizations
  Office of Management and Budget
    National Security Division
  General Accounting Office
    National Security and International Affairs Division
        Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
  House Committee on Armed Services
  House Committee on Government Reform
  House Subcommittee on National Security, Veterans Affairs, and International
    Relations, Committee on Government Reform
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform.




                                         21
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas Gimble
     Mary Lu Ugone
     Charles Santoni
     John A. Mitton
     Jenshel Marshall
